10/14/2020

Step Account Agreement — Step.com

Policies > Step Account Agreement

Step Account Agreement
September 24, 2020

The following terms and conditions constitute an agreement (Agreement) between you and Evolve Bank & Trust governing the
use of your Step account. (Step Account). This Agreement also refers to and includes other disclosures we may provide to you,
which are incorporated by reference. As used in this Agreement, Customer, you and your mean the owner of the Step Account,
any person responsible for paying back all amounts you owe us under this Agreement, and any other person you may authorize
to use and access your Step Account (Authorized User). The terms we, us, our, Bank and Evolve mean Evolve Bank & Trust. By
opening or continuing to use a Step Account, you agree to this Agreement. Please keep a copy of this Agreement for your
records.

PLEASE READ THIS AGREEMENT CAREFULLY, AS IT CONTAINS AN ARBITRATION AGREEMENT IN SECTION V.C.23 AND OTHER
IMPORTANT INFORMATION REGARDING YOUR LEGAL RIGHTS, REMEDIES, AND OBLIGATIONS. UNLESS YOU ACT PROMPTLY TO
REJECT THE ARBITRATION AGREEMENT, IT REQUIRES THAT YOU SUBMIT CLAIMS YOU HAVE AGAINST US TO BINDING AND
FINAL ARBITRATION, AND FURTHER (1) YOU WILL ONLY BE PERMITTED TO PURSUE CLAIMS AGAINST US ON AN INDIVIDUAL
BASIS, NOT AS A PLAINTIFF OR CLASS MEMBER IN ANY CLASS OR REPRESENTATIVE ACTION OR PROCEEDING, AND (2) YOU
WILL ONLY BE PERMITTED TO SEEK RELIEF (INCLUDING MONETARY, INJUNCTIVE, AND DECLARATORY RELIEF) ON AN
INDIVIDUAL BASIS. IMPORTANTLY, THE ARBITRATION AGREEMENT INCLUDES OPT OUT PROVISIONS.
https://step.com/policies/accountagreement

1/69

10/14/2020

Step Account Agreement — Step.com

I.IMPORTANT INFORMATION ABOUT YOUR STEP ACCOUNT
Your Step Account consists of a Step deposit account (Deposit Account) and a Step Visa© credit card account (Card
Account) provided by Evolve. Evolve also issues cards or other devices (each, a Card) to access your Credit Card Account.

Within your Step Account, you may set up a sub-account for each of your Authorized Users (each, a Sub-Account) to manage
their use of your Step Account. Each Sub-Account will have a Wallet which represents a portion of the funds held in the
Deposit Account, which are designated for use to a particular Sub-Account. Each Authorized User is issued a Card, which is
associated with a Sub-Account.

The Step Account is designed to help you and each Authorized User save more than you spend. You and your Authorized
User(s) may never spend more than the amount you have in your Deposit Account with your Card or with transactions on your
Deposit Account. We refer to this limit as the Spending Limit. Your Card Account is also subject to a maximum Credit Limit.
See Sections II.A.6 and III.A.2 for more information.

If you establish more than one Sub-Account, you may allot funds in the Deposit Account to a Wallet for saving and spending
by Authorized Users of one Sub-Account only. By doing so, each Sub-Account will have its own Spending Limit, which will be
no greater than the total amount of funds in the Wallet, minus the outstanding balance on the Card, associated with that SubAccount. The Spending Limit for each Sub-Account may never exceed the Spending Limit or Credit Limit on your Step
Account. See Sections II.A.6 and III.A.2 for more information.

Each Card is a credit card which accesses the Card Account, which is a line of credit provided by Evolve. It is not a debit
card.
https://step.com/policies/accountagreement

2/69

10/14/2020

Step Account Agreement — Step.com

YOUR OBLIGATION TO PAY US BACK FOR ALL CARD TRANSACTIONS AND OTHER OBLIGATIONS YOU INCUR IS SECURED BY
YOUR DEPOSIT ACCOUNT. IF YOU DO NOT PAY US BACK FOR ANY AMOUNT YOU OWE US WHEN YOUR PAYMENTS ARE DUE,
WE MAY EXERCISE OUR INTEREST AND DEBIT YOUR DEPOSIT ACCOUNT AND YOU CAN LOSE THE MONEY IN YOUR DEPOSIT
ACCOUNT. SEE THE SECURITY AGREEMENT FOR MORE INFORMATION.

You are responsible for all activity conducted on your Step Account by an Authorized User, and all transactions Authorized
Users make will be treated as if you had made the transaction yourself.

TRUTH IN LENDING DISCLOSURES
IMPORTANT PRICING INFORMATION ABOUT YOUR STEP CARD

Annual Percentage Rate (APR) for Purchases

0.00%

and Cash Advances

Penalty APR and When it Applies

0.00%

This APR (the Penalty APR) may be applied to your account if you do not
pay the minimum payment due, make a late payment, or your payment is
https://step.com/policies/accountagreement

3/69

10/14/2020

Step Account Agreement — Step.com

returned and you fail to make a successful payment by the Due Date. Your
entire balance will be subject to the Penalty APR.

How Long Will the Penalty APR Apply?: If your APR is increased for any
of these reasons, the Penalty APR may apply until you make all your
required payments and you have no amount past due.

How to Avoid Paying Interest

Your Due Date is at least 21 days after the close of each Cycle. We will
not charge you interest on purchases or cash advances if you pay your
entire balance by the Due Date each month.

Minimum Interest Charge

None

For Credit Card Tips from the Consumer

To learn more about the factors to consider when applying for or using

Financial Protection Bureau

a credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerﬁnance.gov/learnmore

Fees
Transaction Fees

None.

Foreign Transaction
https://step.com/policies/accountagreement

4/69

10/14/2020

Step Account Agreement — Step.com

Penalty Fees
$0.
Late Payment

$0.

Returned Payment

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See Section
III.C.2 of this Agreement for more details.

Billing Rights: Information on your rights to dispute Step Card transactions and how to exercise those rights is provided in
Section III.E of this Agreement.

SECURITY AGREEMENT
. Our Security Interest in Your Deposit Account. You hereby grant to us, as of the date you enter into this Agreement, a
security interest in all right, title and interest in any Deposit Account you have with us, and all funds deposited therein, now
owned or hereinafter acquired (collectively, the Collateral), to secure your performance under this Agreement, including your
duty to pay us for all obligations you owe us under this Agreement, present or hereinafter occurring, when payments are due,
for every transaction made with your Step Account by you, an Authorized User, or any other person that you or an Authorized
User permits to use your Step Account (Security Interest).

https://step.com/policies/accountagreement

5/69

10/14/2020

Step Account Agreement — Step.com

. Our Right to Exercise the Security Interest. You irrevocably and unconditionally relinquish possession and control over the
Collateral, and you pledge and assign as security to us all of your right, title, and interest in it. You must take any action we
request to perfect or protect our ﬁrst lien position Security Interest in the Collateral. You waive the beneﬁt of any homestead
or other exemptions in the Collateral. The Security Interest will be governed by Uniform Commercial Code - Article 9 (as
adopted by the applicable state law) whether Article 9 applies by its terms or not. We do not have to give you any prior
notice to apply the funds in your Deposit Account or other Collateral or its proceeds to satisfy your obligations. You expressly
agree that our rights under this Security Agreement extend to any electronically deposited federal or state beneﬁt payments
(including Social Security beneﬁts) to the extent permitted by law. If you do not want your beneﬁts applied in this way, you
may change your direct deposit instructions at any time with the person or organization paying the beneﬁts. In addition, you
grant us a right of setoff to your Deposit Account to secure all amounts you owe us under this Agreement. This right of setoff
does not apply to your Deposit Account if prohibited by law. You agree to hold us harmless from any claim arising as a result
of our exercise of our right of setoff or Security Interest.

. What Happens When You Spend Money. The Step Account is designed to help you save more than you spend. When you
make a transaction on a Card, an equivalent amount of funds in the Deposit Account will be classiﬁed as Spent Money. The
Spent Money will remain in your Deposit Account, but you will not earn interest on it. When you make a payment on your
Card, an amount of the Spent Money equal to the amount of the payment will no longer be classiﬁed as Spent Money. You
authorize us to limit your ability to withdraw or transfer all or part of the funds in your Deposit Account, up to the amount of
funds classiﬁed as Spent Money, as reasonably necessary to ensure that your Card Balance (deﬁned below in Section III.A.2.a)
and total of other transactions on your Deposit Account do not exceed the Available Balance (deﬁned below in Section IV.B.1)
in your Deposit Account at any given time, and to preserve our rights under this Security Agreement.

. YOU MAY LOSE FUNDS IN YOUR DEPOSIT ACCOUNT. If you are in default of any obligation under this Agreement, or your
Step Account is closed for any reason, you authorize us to withdraw funds from your Deposit Account and apply such
https://step.com/policies/accountagreement

6/69

10/14/2020

Step Account Agreement — Step.com

amounts to the balance you owe us without sending you notice or demand for payment. We may do this in addition to the
other rights we have under law or this Agreement. The application of your funds to the balance you owe under this
Agreement will not affect your obligation to pay us in full. You are responsible for the repayment all amounts you owe us
under this Agreement.

. Legal Proceedings. You represent that (a) there are no current lawsuits or bankruptcy proceedings that might affect our
interest in your Deposit Account; and (b) you have not and will not attempt to transfer any interest in your Deposit Account to
any other person or offer your Deposit Account as collateral or security for any other obligation. If any person seeks to attach
your Deposit Account, for example by legal garnishment, you agree that we may deem all amounts you owe us, including any
unpaid Step Card Balance (deﬁned below in Section III.A.2.a), immediately payable and apply the funds in your Deposit
Account as payment of those amounts. If we must hire an attorney to defend or enforce our rights under the Security
Agreement, you will pay our reasonable attorneys’ fees and court costs, unless prohibited by law.

TRUTH IN SAVINGS DISCLOSURES
IMPORTANT INFORMATION ABOUT YOUR DEPOSIT ACCOUNT

RATE INFORMATION. The interest rate on the balance in your Deposit Account that is eligible to earn interest is 0.0% with an
annual percentage yield (APY) of 0.0%. Your interest rate and APY may change.

Determination of Rate. At our discretion, we may change the interest rate on your Deposit Account.

Frequency of Rate Changes. We may change the interest rate on your Deposit Account at any time.
https://step.com/policies/accountagreement

7/69

10/14/2020

Step Account Agreement — Step.com

Limitations on Rate Changes. There are no maximum or minimum interest rate limits.

COMPOUNDING AND CREDITING. Interest will be compounded daily and will be credited to your Deposit Account monthly. If
you close your Deposit Account before interest is credited, you will not receive the accrued interest.

MINIMUM BALANCE REQUIREMENTS. No minimum balance requirements apply to your Deposit Account.

BALANCE COMPUTATION METHOD. You earn interest on the balance in your Deposit Account that is not classiﬁed as Spent
Money. The amount of Spent Money in your Deposit Account is equal to your outstanding, unpaid Step Card Balance.

We use the average daily balance method (less Spent Money) to calculate interest on your Deposit Account. This method
applies a periodic rate to the average daily balance (less Spent Money) in your Deposit Account for the Cycle. The average daily
balance may be calculated based on your ledger balance or your Available Balance. To get the average daily balance (less
Spent Money), we add the balance in the Deposit Account for each day of the Cycle, then subtract the Spent Money for each
day of the Cycle, and divide that ﬁgure by the number of days in the Cycle. You will not earn interest on any balance in your
Deposit Account that is classiﬁed as Spent Money.

When interest is credited to your Deposit Account, if you have more than one Sub-Account, the interest will be divided and
credited to each Wallet on a prorated basis, based on the amount of funds in that Wallet on which the interest accrued.

ACCRUAL ON NON CASH DEPOSITS. Interest begins to accrue no later than the Business Day we receive credit for the deposit
of non-cash items.

https://step.com/policies/accountagreement

8/69

10/14/2020

Step Account Agreement — Step.com

TRANSACTION LIMITATIONS. You may not make transactions that would cause the Spent Money to exceed the total balance in
your Deposit Account. If you have more than one Sub-Account, you may not make transactions with any Sub-Account that
would cause the Spent Money in a Sub-Account to exceed the total Available Balance in that Sub-Account’s Wallet, even if there
are sufﬁcient funds in the Deposit Account. If you exceed these limits, we may close, suspend, or freeze your Deposit Account.

FEES AND CHARGES. Please refer to the separate Fee Schedule provided to you with this Agreement for information about fees
and charges associated with your Deposit Account. A Fee Schedule will be provided to you at the time you open a Step
Account, periodically when fees or charges change, and upon request.

II. GENERAL TERMS
This section applies to all features of your Step Account

A. About your Step Account

. Evolve. The Step Account is provided by Evolve Bank & Trust.

. Business Days. Our Business Days are every day except Saturdays, Sundays, and holidays.

. Writing to Us. You may e-mail us at support@step.com. You may also write to us at 120 Hawthorne Ave, Palo Alto CA 94301.
We will deem any and all notices to us effective upon receipt by us.

https://step.com/policies/accountagreement

9/69

10/14/2020

Step Account Agreement — Step.com

. Your Account. Your Step Account includes a Deposit Account and a Card. THE CARD IS A CHARGE CARD THAT ACCESSES A

LINE OF CREDIT. IT IS NOT A DEBIT CARD. INTEREST AND OTHER CHARGES MAY APPLY. Within your Step Account, you may
set up one or more Sub-Accounts for use by an Authorized User. Each Sub-Account will have its own Card, issued to the
Authorized User of the Sub-Account, and a Wallet. You may designate funds in the Deposit Account to each Sub-Account’s
Wallet, for saving or spending within the selected Sub-Account, which will not be made available for use by Authorized Users
of any other Sub-Account. Each Sub-Account will be considered a part of your Step Account. The credit we extend when you
use your Card(s), and any other obligation you incur, is secured by your Deposit Account. See the Security Agreement.

. Spending Limit. The Step Account is designed to help you save more than you spend. You may never spend more than the
amount you have in your Deposit Account with your Card or with transactions on your Deposit Account. We refer to this limit
as the Spending Limit. Your Spending Limit is determined by taking the Available Balance and subtracting the Spent Money.
The Spent Money is a portion of the Available Balance in your Deposit Account in an amount equal to your total Step Card
Balance. If you have more than one Sub-Account, each Sub-Account will also have its own applicable Spending Limit, which is
equal to the Available Balance in the Sub-Account’s Wallet, minus that Sub-Account’s Step Card Balance. The Spending Limit
(and the total of the Spending Limits for all Sub-Accounts) may never exceed the Credit Limit or the Available Credit. If you
make a transaction that causes you to exceed the Spending Limit on your Step Account or any Sub-Account, you agree to
immediately make a payment on your Card or make a deposit to your Deposit Account deposit such that you no longer
exceed your Spending Limit.

Our general practice is to decline any transaction that would cause you to exceed any applicable Spending Limit. Even if we
have permitted you to exceed your Spending Limit before, we are not required to do it in the future. We may determine the
amount of Available Balance, Spent Money, and Step Card Balance for the purpose of deciding whether a transaction will
cause you to exceed a Spending Limit only once, and at any time between the time you authorize the transaction and when
we decline the transaction or send a notice of the declined transaction.

https://step.com/policies/accountagreement

10/69

10/14/2020

Step Account Agreement — Step.com

. The App. You can access your Step Account through the Step mobile application (App). You may log in to the App at any
time to view and update information about your Account and initiate online transactions. Your use of the App is subject to the
Step Mobile App Terms of Service.

. Periodic Statements. We will make available to you one periodic statement (Statement) for your Step Account per month,
covering activity on your Card and Deposit Account during each monthly cycle (Cycle). Each Statement will tell you how
much you must pay us, and when the payment is due (Due Date). We may make your Statements available through the App,
by e-mail, or by mail. We have made the Statement available to you on the day we notify you that the Statement is available
or we mail your paper Statement. If your Deposit Account balance has charged off, we may provide you with quarterly
Statements.

B. Opening Your Step Account

. Identifying You. To help the United States Government ﬁght terrorism and money laundering, federal law requires us to
obtain, verify, and record information that identiﬁes each person that opens an Account. What this means for you: when you
open a Step Account, we will ask you for your name, street address, email, phone number, last four digits of your Social
Security Number (SSN), and date of birth, and other information that will allow us to identify you. To open a Step Account
with us, you must be at least 18 years old, a U.S. citizen or a resident alien with a valid SSN and have a residential address in
the U.S. or U.S. territory where we offer the Step Account. We may also ask to see your driver’s license or other identifying
documents that will allow us to identify you. You must tell us when this information changes. We may ask you for additional
documents to verify any changes. We may restrict or close your Step Account if we cannot verify your information, or if you
do not provide it as requested.

https://step.com/policies/accountagreement

11/69

10/14/2020

Step Account Agreement — Step.com

. Consumer Reporting Agencies. You authorize us to obtain information about you from time to time from consumer reporting
agencies, check veriﬁcation services, and other third parties for the purpose of considering your application for a Step
Account or any other purpose permitted by law.

. TIN/Backup Withholding. We are required by federal law to obtain your correct taxpayer identiﬁcation number (TIN) in order
to avoid potential backup withholding and to report interest income paid to you in connection with your Step Account. If you
are subject to backup withholding or if the Internal Revenue Service (IRS) notiﬁes us that we do not have a correct TIN for
you, we may be required to withhold and remit to the IRS a percentage of interest paid (backup withholding) to your Deposit
Account. Amounts withheld are reported to the IRS as federal tax withheld and will be reﬂected on your IRS Form 1099-INT,
Interest Income. A TIN may be your SSN if your Step Account is in your name and you are either a U.S. citizen, permanent
resident, or otherwise eligible to receive an SSN.

. Ownership of Step Account. This is an individual account.

. Authorized Users. You may authorize one or more Authorized Users to use and access your Step Account, or any SubAccount, subject to our approval. The Authorized User must be at least 13 years of age. We reserve the right to limit the
number of Authorized Users of your Step Account. We may require you to submit certain information about each person you
request to make an Authorized User on your Step Account or a Sub-Account. Authorized Users will have access to certain
information about your Step Account and will be able to make transactions with your Step Account. You will be responsible
for an Authorized User’s use of the Step Account, and use of the Step Account by anyone else they allow to use the Step
Account, even if you did not want, or agree to, that use. We may also limit an Authorized User’s ability to use the Step
Account. The Authorized User is designated to conduct transactions on your behalf. You do not give up any rights to act on
the Step Account, and the Authorized User may not in any manner affect the rights of the owner or beneﬁciaries, if any, other
https://step.com/policies/accountagreement

12/69

10/14/2020

Step Account Agreement — Step.com

than by using the Card and making transactions on the Step Account. We undertake no obligation to monitor transactions to
determine that they are on the owner's behalf. The Authorized User’s authority is automatically terminated by the death of
any owner of the Step Account. However, we may continue to honor the transactions of the Authorized User until: (a) we have
received written notice or have actual knowledge of the termination of authority, and (b) we have a reasonable opportunity
to act on that notice or knowledge. We may refuse to accept an Authorized User for any reason, in our sole discretion.

. Removing an Authorized User. If you want to remove an Authorized User from your Step Account, you must contact us and
request their removal. Authorized Users may remove themselves from your Step Account upon request. You also must
immediately destroy all Cards in their possession, change or destroy any other Access Credentials (as deﬁned below in
Section V.C.1) in their possession, and cancel any arrangements, such as automatic or scheduled transactions, they may have
set up on your Step Account. The Authorized User will be able to use your Step Account until we receive the request to
remove the Authorized User from your Step Account and we have acted on your notice. During this time, you will still be
responsible for all transactions the Authorized User makes using your Step Account. You will be responsible even if these
transactions do not appear on or post to your Step Account until after you remove the Authorized User from the Step
Account. We reserve the right to remove any Authorized User from your Step Account for any reason. When you or we
remove an Authorized User for any reason, we may revoke the Authorized User’s Card, close any Sub-Account the Authorized
User used, issue a new Card with a different number, close your existing Step Account and issue a new Step Account with a
new account number, and/or require you to change other Access Credentials. Any funds that remain in the Wallet associated
with the closed Sub-Account will remain in your Deposit Account.

. Linking External Accounts. You may choose to link your Step Account to an account you have with another ﬁnancial
institution in the U.S. or a U.S. territory where we offer the Step Account. We will call that other account a Linked External
Account. You can use your Linked External Account to transfer money to or from your Deposit Account. Any Linked External
Account must be owned by you and must be a personal account (not a business or commercial account). Your request to
https://step.com/policies/accountagreement

13/69

10/14/2020

Step Account Agreement — Step.com

establish a Linked External Account is subject to our veriﬁcation and approval. In our discretion, we may limit the number of
Linked External Accounts you may have at one time, block any transaction you make with your Linked External Account, or
disconnect any Linked External Account.

III. STEP CARD TERMS
This Section governs your use of the Step Card.

A. A Card is a credit card. It is not a debit card, and you do not access the money in your Deposit Account when you use a
Card. All credit we extend to you is secured by your Deposit Account. If you do not pay us back for transactions you make
with your Card(s) when your payments are due, we may exercise our Security Interest and withdraw the amount you owe us
from your Deposit Account. You can lose the money in your Deposit Account. See the Security Agreement.
. Using Your Card. The following rules apply to your use of a Card:
You must sign the Card when you receive it

You must return the Card to us or destroy it if we ask you to.

You must take reasonable steps to prevent the unauthorized use of your Card.

We are not responsible for any losses you incur if anyone refuses to accept your Card for any reason.
https://step.com/policies/accountagreement

14/69

10/14/2020

Step Account Agreement — Step.com

We may decline to authorize a transaction for any reason.

We are not responsible for any losses you incur if we do not authorize a transaction.

You must not use, or try to use, the Card for any illegal activity.

We are not liable for any losses that may result when our services are unavailable due to reasons beyond our control.

. Credit Limit and Available Credit.

a. Credit Limit. We will assign a Credit Limit to your Card Account. A Credit Limit is the maximum amount of credit we may
extend to you when you use your Card(s). The total outstanding unpaid balance you owe on your Card(s) (Step Card Balance)
may never be greater than your Credit Limit. You are responsible for keeping track of your Step Card Balance.

b. Spending Limit. All transactions on your Card(s) are subject to the applicable Spending Limit. See Section II.A.6.

c. Available Credit. Your Available Credit is the amount of credit that is available for you to make transactions with your
Card(s) at any given time. Your Available Credit is equal to the Available Balance in your Deposit Account, minus the Spent
Money, up to your Credit Limit.
https://step.com/policies/accountagreement

15/69

10/14/2020

Step Account Agreement — Step.com

d. Rules. You can use the App or email us at support@step.com to view your Step Card Balance, Spending Limit, and
Available Credit at any time. While we do our best to provide the most up-to-date information about your Step Account,
there may be some delay in reﬂecting new transactions, and we cannot guarantee that the accuracy of this information in the
App and by phone. You are responsible for keeping track of your Step Card Balance, Spending Limit, and Available Credit.
Our general practice is to decline transactions that will cause you to exceed your Credit Limit, Spending Limit or Available
Credit. If we do honor these transactions, you are responsible for paying us back in full immediately, and these limits will not
increase. We may increase or decrease your Credit Limit, Spending Limit, or Available Credit at any time, in our sole
discretion. We are not required to extend credit up to your maximum Credit Limit, if it would cause you to exceed your
Available Credit or your Spending Limit.

B. Using Your Account

. Point of Sale Purchases. You may use your Card to make purchases at points-of-sale.

. Cash Advances. You may use your Card to obtain cash advances at ATMs. Obtaining a cash advance at an ATM is a loan and
does not debit your Deposit Account. Interest and ﬁnance charges may apply.

. Using a PIN. We may give you a personal identiﬁcation number (PIN). For security reasons, you may have to provide the PIN
before you are able to use your Card. Keep your PIN secure. Do not write it down, give it to anyone, or keep it with your
Card. If you lose your Card or believe the conﬁdentiality of your PIN has been compromised for any reason, you must contact
us immediately.

https://step.com/policies/accountagreement

16/69

10/14/2020

Step Account Agreement — Step.com

. Rewards. Your Card may provide you with the opportunity to earn rewards. If it does, we will separately provide you with
information and terms about the rewards.

. Authorized Users. You are liable for all transactions made with your Card or Step Account, and all related fees or expenses
incurred, by you, all Authorized Users, and any other person that you or an Authorized User permits to use or have access to
your Step Account, Card, or any other Access Credential.

. Lost or Stolen Card. If your Card is lost or stolen or if you think someone else may be using your Step Account, Card, or
Access Credentials without your permission, you must contact us immediately at security@step.com.

C. Interest and Fees

. Interest and Fees. We will charge interest and fees to as disclosed in the Truth in Lending Disclosures on Pages 1–2 of this
Agreement, subsequent disclosures, Statements, any change in terms notices, and in the Fee Schedule provided with this
Agreement. In general, interest begins to accrue from the day a transaction occurs. However, we will not charge you interest
on any new transactions if you pay the total Step Card Balance you owe on your Step Account in full by the Due Date on your
Statement each month. If you miss a required payment, make a late payment, or a payment is returned and you fail to
successfully make the required payment by the Due Date, the Penalty APR may apply to your entire Step Card Balance
(including amounts that are not past due), except for late fees, until you pay all overdue amounts, except as prohibited by
law.

https://step.com/policies/accountagreement

17/69

10/14/2020

Step Account Agreement — Step.com

. Balance Computation Method. For each Card associated with your Step Account, we ﬁgure the interest charge each Cycle
by applying the periodic rate to the “average daily balance (including new purchases)” on the Card. To get the “average daily
balance,” we take the beginning balance on the Card each day of the Cycle, add any new purchases, cash advances, and/or
fees, and subtract any unpaid interest or other ﬁnance charges and any payments or credits. This gives us the daily balance.
Then, we add up all the daily balances for the Cycle and divide the total by the number of days in the Cycle. This gives us the
“average daily balance.” The interest charge calculated for each Card will be added to the balance on that Card, and to the
total Step Card Balance for your Step Account, at the end of each Cycle.

. Late Payment Fee. We may charge you a late payment fee if we do not receive your payment as instructed on your
Statement by the Due Date. The amount of the late payment fee is set forth in the Fee Schedule.

. Returned Payment Fee. We may charge you a returned payment fee each time your payment to us is returned unpaid for any
reason. The amount of the returned payment fee is set forth in the Fee Schedule.

. Transactions Made in Foreign Currencies. If you make a transaction in a foreign currency, the payment network will convert it
into a U.S. dollar amount. The payment network will use its own currency conversion procedures. The conversion rate in
effect on the processing date may differ from the rate in effect on the transaction date that appears on your Statement. We
do not adjust the currency exchange rate or charge any currency conversion fees.

D. Payments

https://step.com/policies/accountagreement

18/69

10/14/2020

Step Account Agreement — Step.com

. Your Promise to Pay. You promise to pay us all amounts due on your Step Account by each Due Date set forth on your
Statement. This includes amounts where you did not sign a purchase slip or other documents for the transaction. We will
treat transactions made without presenting your physical card (such as for mail, telephone, Internet, or mobile device
purchases) the same as if you used the Card in person. If you let someone else use your Step Account, you are responsible for
all transactions that person makes.

. Minimum Payment. You must pay us the payment amount listed on your Statement by the Due Date. In addition to the
payment, you may pay all or part of the total balance on your Card. But, you must still pay at least the minimum payment
amount each month, even if you paid more than the minimum payment due on the previous Statement.

. Payment Methods. Your payment must be made in U.S. dollars from a U.S. deposit account. You must use one of the
following payment methods:

a. Preauthorized Automatic Payments (“AutoPay”). When you sign up, or by using the App, you may elect to make payments
on your Card(s) using AutoPay. If you select AutoPay, you authorize us to make recurring debits from your Deposit Account or
ACH transfers from a Linked External Account you select, on each Due Date, in the amount of the payment due (or another
amount you select), as set forth on each Statement. You also authorize us to debit or credit your selected payment method
as needed to correct any errors, process returned and reversed payments, and similar issues, to the extent permitted by law.

b. One-Time Transfer. You may use the App to authorize us to make a one-time transfer to us from your Deposit Account or
ACH transfers from a Linked External Account on or before each Due Date. You also authorize us to debit or credit your
selected payment method to correct any errors, process returned and reversed payments, and similar issues, to the extent
permitted by law.

https://step.com/policies/accountagreement

19/69

10/14/2020

Step Account Agreement — Step.com

We may permit additional payment methods from time to time. We may reject any payment not made in accordance with
this section.

. Effect of Payment on Spending Limit. When you make a payment towards your Card Balance from a payment method other
than a transfer from your Deposit Account, your Spending Limit on your Step Account will increase in an amount equivalent to
your payment. We may delay the change in your Spending Limit until we conﬁrm that your payment has cleared. This may
happen even if we credit your payment. If you have elected to make payments from the Deposit Account associated with
your Card, your Deposit Account balance and your Spent Money will be reduced by the amount your payment, and your
Spending Limit on the Card will not increase.

. Payment Processing. We may accept and process payments without losing any of our rights. If your payment is returned
unpaid for any reason, you authorize us to re-initiate the payment you authorized up to two additional times. We also reserve
the right to debit the returned payment amount back to the balance on your Card.

. How We Apply Your Payments. Payments are ﬁrst applied to any past-due amount (except late fees), then to your current
minimum payment due. Payments in excess of your minimum payment due will be applied to any outstanding interest and
fees, then the remainder your Step Card Balance. If you have more than one Sub-Account, and you have no past-due Step
Card Balance, you may make a payment on one selected Sub-Account using your Deposit Account. If you do so, we may use
any of the funds in the Deposit Account to complete the payment on any Card. However, our general practice will be to ﬁrst
use the funds in the Wallet belonging to the same Sub-Account you selected for payment. Payments will be applied to that
Sub-Account in the posting order discussed above. If you do have any past-due Step Card Balance (other than late fees), any
payment you make will ﬁrst be applied to such past-due amounts, and any remaining amount will be applied to the remaining
Step Card Balance in the Sub-Account you selected for payment. We may adjust your Step Card Balance, Deposit Account
https://step.com/policies/accountagreement

20/69

10/14/2020

Step Account Agreement — Step.com

balance, or Spending Limit as reasonably necessary to correct errors, process returned and reversed payments, and similar
issues.

. Credit Balances. We may reject and return any payment that creates or adds to a credit balance on your Card. Any credit
balance we allow will not be available until we conﬁrm that your payment has cleared. We may reduce the amount of any
credit balance by any new charges. You may write to the address provided on your Statement or email us at hello@step.com
to request a refund of any available credit balance greater than $1.00.

E. Your Step Card Billing Rights.

This section applies to billing errors with your Card. If you believe there is an error related a transaction to or from your
Deposit Account, please see the Electronic Fund Transfer Agreement.

This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.

What To Do If You Find A Mistake On Your Statement. If you think there is an error on your Statement, write to us at:

Step Mobile Inc.
120 Hawthorne Ave.
Palo Alto, CA 94301

You may also contact us on the Web: www.step.com
https://step.com/policies/accountagreement

21/69

10/14/2020

Step Account Agreement — Step.com

In your letter, give us the following information:

Account information: Your name and last 4 digits of your Step Card Account Number.

Dollar amount: The dollar amount of the suspected error.

Description of Problem: If you think there is an error on your Statement, describe what you believe is wrong and why you
believe it is a mistake.

You must contact us within 60 days after the error appeared on your Statement.

To stop a scheduled payment on an amount you think is wrong, you must contact us at least three Business Days before the
scheduled payment date.

You must notify us of any potential errors in writing or electronically. You may call us, but if you do we are not required to
investigate any potential errors and you may have to pay the amount in question.

What Will Happen After We Receive Your Notice

When we receive your notice, we must do two things:

https://step.com/policies/accountagreement

22/69

10/14/2020

Step Account Agreement — Step.com

. Within 30 days of receiving your notice, we must tell you that we received your notice. We will also tell you if we have
already corrected the error.

. Within 90 days of receiving your notice, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error, the following are true:

We cannot try to collect the amount in question, or report you as delinquent on that amount.

The charge in question may remain on your Statement, and we may continue to charge you interest on that amount. But, if
we determine that we made a mistake, you will not have to pay the amount in question or any interest or other fees related
to that amount.

While you do not have to pay the amount in question, you are responsible for the remainder of your Step Card Balance.

We can apply any unpaid amount against your Spending Limit.

After we ﬁnish our investigation, one of two things will happen:

https://step.com/policies/accountagreement

23/69

10/14/2020

Step Account Agreement — Step.com

If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.

If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and
fees. We will send you a statement of the amount you owe and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.

If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still
refuse to pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill. We
must tell you the name of anyone to whom we reported you as delinquent, and we must let those organizations know when the
matter has been settled between us.

If we do not follow all of the rules above, you do not have to pay the ﬁrst $50 of the amount you question even if your bill is
correct.

Your Rights If You Are Dissatisﬁed With Your Card Purchases. If you are dissatisﬁed with the goods or services that you have
purchased with your Card, and you have tried in good faith to correct the problem with the merchant, you may have the right
not to pay the remaining amount due on the purchase.

To use this right, all of the following must be true:

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase
price must have been more than $50. (Note: Neither of these is necessary if your purchase was based on an advertisement we
https://step.com/policies/accountagreement

24/69

10/14/2020

Step Account Agreement — Step.com

mailed to you, or if we own the company that sold you the goods or services.)

You must have used your Card for the purchase. Purchases made with cash advances from an ATM do not qualify.

You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisﬁed with the purchase, contact us in writing or electronically at the
address listed above.

While we investigate, the same rules apply to the disputed amount as discussed above. After we ﬁnish our investigation, we
will tell you our decision. At that point, if we think you owe an amount and you do not pay we may report you as delinquent.

If we provide you a credit for all or part of a disputed transaction, you give us all of your rights against others regarding that
transaction. You will also: (a) give us any information about the disputed transaction, if we ask; (b) not pursue any claim or
reimbursement of the transaction amount from the merchant or any other person; and (c) help us get reimbursement from
others. If we reimburse you for unauthorized transactions, you will help us investigate, pursue and get reimbursement from
the wrongdoer. Your help includes giving us documents in a form that we request.

No Warranties. We are not responsible for any claim you may have regarding the purchase of goods or services made with
your Card beyond your rights described in this section and on your Statement.

F. Account Default.
https://step.com/policies/accountagreement

25/69

10/14/2020

Step Account Agreement — Step.com

. Events of Default. Your Step Account will be in default if:
You do not make a minimum payment when it is due;

Any required payment you make is rejected, not paid or cannot be processed;

You exceed your Credit Limit;

You ﬁle or become the subject of a bankruptcy or insolvency proceeding;

You are unable or unwilling to repay your obligations, including upon death or legally declared incapacity;

We determine that you made a false, incomplete or misleading statement to us, or you otherwise tried to defraud us;

You revoke your consent to receive records, disclosures, and other communications electronically;

You do not comply with any term of this Agreement or any other agreement with us;

https://step.com/policies/accountagreement

26/69

10/14/2020

Step Account Agreement — Step.com

You relocate outside the United States; or

We receive a garnishment, attachment or other levy upon your Deposit Account, or the Deposit Account is subject to any
other legal proceeding.

. Consequences of Default. If you are in default, we may take certain actions with respect to your Step Account. For example,
we may take the following actions, without notifying you, unless the law says that we must give you notice:
Close or suspend one or more of your Card(s), Deposit Account or your entire Step Account;

Reduce your Credit Limit or Spending Limit;

Demand that you immediately pay the Step Card Balance;

Continue to charge you interest and fees (as set forth in the Truth in Lending Disclosures) as long as your Step Card Balance
remains outstanding; and/or

File a lawsuit against you, or pursue another action that is not prohibited by law. If we ﬁle a lawsuit, you agree to pay our
court costs, expenses and attorney fees, unless the law does not allow us to collect these amounts.

https://step.com/policies/accountagreement

27/69

10/14/2020

Step Account Agreement — Step.com

IV. DEPOSIT ACCOUNT TERMS
This section governs your use of your Deposit Account.

A. Deposits

. Limited Deposit Account Access. Your Deposit Account is only accessible through the App on your mobile device. You may
only make withdrawals and transactions from your Deposit Account by initiating permitted transactions on the App. You will
not be able to make withdrawals or deposits on your Deposit Account at branch locations, by telephone, at the point of sale,
or at ATMs. You may not use your Card to debit your Deposit Account.

. FDIC Insurance. Funds in your Deposit Account are insured by the Federal Deposit Insurance Corporation (FDIC) and backed
by the full faith and credit of the United States, up to the applicable limit. The amount of insurance coverage you have may
depend on the balance in your Deposit Account and the ownership, type of, and balances held in any other accounts you
have with us. For additional information, please visit the FDIC’s website at www.fdic.gov.

. Deposit Requirements. Deposits must be made in U.S. Dollars. Deposits made by ACH are subject to the NACHA Operating
Rules and Operating Guidelines and the rules of any regional clearing houses we may use from time to time (collectively, the
ACH Rules). Before ﬁnal settlement of any deposit, we act only as your agent. We will give only provisional credit until
collection is ﬁnal for any items we accept for deposit (including items drawn “on us”). You authorize us to attempt to collect
previously returned items without giving you notice, and in attempting to collect we may permit the payor bank to hold an
item beyond an applicable deadline. Actual credit for deposits of, or payable in, foreign currency will be at the exchange rate
in effect on ﬁnal collection in U.S. dollars. We will treat and record all transactions received after the Cutoff Time (deﬁned
https://step.com/policies/accountagreement

28/69

10/14/2020

Step Account Agreement — Step.com

below) on a Business Day we are open, or received on a day we are not open for business, as if initiated on the next Business
Day that we are open. At our option, we may take an item for collection rather than for deposit.

. Permitted Deposits. Deposits to your Deposit Account may be made using one of the following payment methods:

External Debit Card. You may use the App to authorize us to charge a debit card issued by an external U.S. bank and deposit
the funds in your Deposit Account. You are responsible for any fees charged by the issuing bank for using your debit card.

Linked External Account. You may authorize us to initiate ACH transfers from a Linked External Account to your Deposit
Account. Use the App to set up, review, change or cancel your scheduled transfers.

Person-to-Person Transfer with Step Users. You can receive transfers to your Deposit Account initiated by another Step user,
using the person-to-person transfer services (P2P Transfer) provided in the App pursuant to Section IV.D below.

Direct Deposit. You can direct a third party, such as an employer, to electronically deposit your paycheck, retirement
beneﬁts, or other income to your Deposit Account by ACH or wire transfer. Direct deposits may not be initiated in the App.

Other. We may permit you to make deposits by other means we make available from time to time.

https://step.com/policies/accountagreement

29/69

10/14/2020

Step Account Agreement — Step.com

. Deposit Records and Receipts. We and our service providers may rely on the account number on any record of a deposit you
make, even if that account number is associated with a name that is different from the name you have provided. It is not our
responsibility to detect any inconsistency between the account number you provide and the name. You may use the App or
call us to conﬁrm that we have received a deposit. If you make a deposit, we may provide a conﬁrmation of your deposit, but
the amount on your deposit conﬁrmation may not reﬂect the amount of funds we actually receive. We may conﬁrm the funds
you deposit and, after review, may adjust your Deposit Account for any errors including any errors on your deposit request or
similar records. If we give you a conﬁrmation for a deposit that you then cancel, the conﬁrmation is void and you may not
claim those funds.

. Our Right to Refuse Deposits. We may refuse a deposit, or part of a deposit, at any time. We also may refuse a deposit after
initially accepting it. We will not be liable to you for refusing a deposit, even if it causes us to decline any transactions you
have already made.

. When You Can Withdraw Funds You Have Deposited. Please see the Funds Availability Policy for information about when
funds you deposit will be available for withdrawal. If funds from a deposit become available and you can withdraw them, that
does not mean the item you have deposited is “good,” has “cleared,” or has been paid by the paying bank. It is possible that
the item will be returned unpaid months after we have made the funds available to you and you have withdrawn them.

. Our Right to Charge Back Deposited or Cashed Items. If you make a deposit and (a) the sending bank returns it to us unpaid;
(b) the sending bank demands that we repay them because the deposit was unauthorized; or (c) the sending bank or the
originator of a transfer demands that we return the item because it was unauthorized, sent to the wrong account number or
procured by fraud, we may pay the return or demand, and subtract the funds from your balance. If we have reason to believe
that any of the events in the previous sentence has occurred or may occur or that the item should not have been paid or may
https://step.com/policies/accountagreement

30/69

10/14/2020

Step Account Agreement — Step.com

not be paid for any other reason, we may place a hold on the funds or move them to a bank-managed administrative account
until we determine who is entitled to them.

. All Deposits Are Credited Subject to Final Settlement in Cash or Credits. We have the right to forward all deposited items to
correspondents including all Federal Reserve Banks, and we will not be liable for default or neglect of any correspondents for
loss in transit, and no correspondent will be liable except for its own negligence. You speciﬁcally authorize us or our
correspondents including the Federal Reserve Banks to handle such items in accordance with provisions of Regulation J (12
CFR Part 210), as revised or amended from time to time by the Federal Reserve Board. In the event we are subject to local
clearinghouse rules, you speciﬁcally authorize us to handle such items in accordance with the rules and regulations of the
clearinghouse.

If we permit you to withdraw funds from your Deposit Account before ﬁnal settlement has been made for any deposited item,
and ﬁnal settlement is not made, we have the right to charge your Deposit Account or obtain a refund from you. In addition,
we may charge back any deposited item at any time before ﬁnal settlement for whatever reason. We will not be liable for any
damages resulting from the exercise of these rights. Except as may be attributable to our lack of good faith or failure to
exercise ordinary care, we will not be liable for dishonor resulting from any reversal of credit, return of deposited items or for
any damages resulting from any of those actions.

B. Withdrawals and Transfers

. Available Balance. You may withdraw or transfer all or any part of the Available Balance in your Deposit Account at any time,
provided that the withdrawal will not cause you to exceed the Spending Limit(s) and any other limitations in this Agreement
or limits you set on the Deposit Account by using the App. We determine your Available Balance by taking your previous
https://step.com/policies/accountagreement

31/69

10/14/2020

Step Account Agreement — Step.com

day’s balance, plus any pending credit transactions (excluding pending returns), such as ACH direct deposits, and subtracting
(a) pending charges such as, electronic payments, according to the Processing Order (deﬁned in Section IV.B.9 below) (b)
amount of deposits that are not yet available for withdrawal under our Funds Availability Policy, and (c) any holds on your
balance, such as holds on funds to comply with court orders or other legal requirements, or as authorized by the Security
Agreement. We reserve the right to use a different method in certain states if required by law. We may permit Authorized
Users to withdraw only the portion of the Available Balance which is designated to the Sub-Account(s) they are authorized to
use. However, we are not required to do so unless required by applicable law.

. Withdrawal Rules. By initiating a withdrawal of funds from your Deposit Account, you authorize us to make the transaction
you select. Withdrawals may be made in U.S. dollars by using the App to authorize a transfer of funds to a Linked External
Account, to make payments on your Card, to make a P2P transfer to another Step user, or to make a transfer to another type
of account or payee we may permit from time to time. Withdrawals to a Linked External Account and P2P transfers are
processed as ACH transactions. Please see the Electronic Fund Transfer Agreement for more information.

We may subtract from your Deposit Account balance the amount of any withdrawal, P2P Transfer, or other debit transaction
that you, or any Authorized User, or person you or an Authorized User authorized, initiated or approved. We may require you
or any person you authorize to provide us with identiﬁcation, documentation or information that is acceptable to us before
allowing the transaction. You may not make any withdrawal in an amount that exceeds the applicable Spending Limit. We
may refuse to permit Authorized Users to make any withdrawal in an amount that exceeds the Spending Limit applicable to
the Sub-Accounts they are authorized to use. We may refuse any withdrawal or transfer request by any method on forms not
approved by us, or that we do not speciﬁcally permit for your Deposit Account, or that does not include all information we
require, or that is greater in number than the frequency permitted, or which is greater or less than any withdrawal limitations.
We will use the date the transaction is completed by us (as opposed to the date you initiate it) to apply the frequency
limitations. In addition, we may place limitations on your Deposit Account until your identity is veriﬁed. We reserve the right

https://step.com/policies/accountagreement

32/69

10/14/2020

Step Account Agreement — Step.com

to establish (and change) maximum dollar limits for withdrawal transactions from time to time. Even if we honor a
nonconforming request, we are not required to do so later.

If you have one or more Sub-Accounts, you may select the Sub-Account from which you would like to withdraw funds. The
withdrawal will reduce the Available Balance in the Wallet of that Sub-Account.

. Cutoff Time. Online requests to transfer funds to or from your Deposit Account must be received by us by 2:00 PM Eastern
Time on a Business Day to be initiated on that Business Day. Online transfer requests received by us after 2:00 PM Eastern
Time or on a day that is not a Business Day generally will be initiated on the next Business Day.

. Right to Require Advance Notice of Withdrawals. We reserve the right to require seven days’ notice in writing before each
withdrawal.

. Account Numbers on Fund Transfers. If you instruct us to send a fund transfer, such as an ACH transfer, we, our service
providers, and every other bank involved in the transfer may rely on any bank number or account number you provide. If the
fund transfer instruction gives both a bank number or account number and a name, and the name identiﬁes a different person
from the bank or account owner identiﬁed by number, we and other banks that handle the fund transfer may still rely
exclusively on the number. We have no duty to detect any inconsistency between the bank number or account number and
the name.

. Withdrawal Authority. Any person who signs to open your Deposit Account or has authority to make withdrawals (including
Authorized Users) may, acting alone, withdraw or transfer all or any part of your Deposit Account balance at any time. Each of
https://step.com/policies/accountagreement

33/69

10/14/2020

Step Account Agreement — Step.com

you (until we receive written notice to the contrary) authorizes each other person who signs or has authority to make
withdrawals to endorse any item payable to you or your order for deposit to your Deposit Account or any other transaction
with us.

. Rules for ACH Transfers. This Agreement is subject to Article 4A of the Uniform Commercial Code – Fund Transfers, as
adopted in the state in which you have your Deposit Account with us. If you originate a fund transfer and you identify by
name and number a beneﬁciary ﬁnancial institution, an intermediary ﬁnancial institution or a beneﬁciary, we and every
receiving or beneﬁciary ﬁnancial institution may rely on the identifying number to make payment. We may rely on the
number even if it identiﬁes a ﬁnancial institution, person or account other than the one named. You agree to be bound by
automated clearing house association rules, such as the NACHA Rules. These rules provide, among other things, that
payments made to you, or originated by you, are provisional until ﬁnal settlement is made through a Federal Reserve Bank or
payment is otherwise made as provided in Article 4A-403(a) of the Uniform Commercial Code. If we do not receive such
payment, we are entitled to a refund from you in the amount credited to your Deposit Account and the party originating such
payment will not be considered to have paid the amount so credited. If we receive a payment order to credit your Deposit
Account, we are not required to give you any notice of the payment order or credit.

. Multiple Signatures. We are not required to comply with any multiple-signature requirement, even if you have otherwise
instructed us to do so.

. Processing Order. The following Processing Order dictates the order in which we will process your transactions on your
Deposit Account each Business Day. All credit transactions are processed ﬁrst. Debits or withdrawals (such as ACH
transactions) will be processed in the order in which they are received by us. The processing order of these items is
important because if there is not enough money in your Deposit Account to pay for the items in the order they are processed
https://step.com/policies/accountagreement

34/69

10/14/2020

Step Account Agreement — Step.com

in accordance with the processing order, we may decline the transaction, or it may cause an overdraft on your Deposit
Account.

C. Overdrafts

. Overdrafts. Our general practice is to decline to pay any transaction that would cause an overdraft on your Deposit Account
(i.e., your Available Balance is less than the amount of that item plus all other items received but not yet paid) (Overdraft), or
would cause a negative Available Balance in any Wallet. Even if we have paid these items before, we are not required to do it
in the future. We can change our practice of paying these items on your Deposit Account without notice to you. We may
determine the amount of Available Balance for the purpose of deciding whether to return an item for insufﬁcient funds at any
time between the time we receive the item and when we return the item or send a notice in lieu of return. We need only look
at your Available Balance in your Step Account or any Wallet once to decide if the item would cause an Overdraft or negative
Available Balance in any Wallet, but if we choose to make a subsequent determination, the Available Balance at the
subsequent time will determine whether there are insufﬁcient available funds. It is your responsibility to avoid overdrawing
your Deposit Account and maintain an Available Balance of at least $0.00 in each Wallet in your Step Account.

. Overdraft Fees. You agree that we may charge fees for Overdrafts as set forth in the Fee Schedule.

. Your Responsibility to Pay Overdrafts. You are liable for any Deposit Account or Wallet shortage resulting from charges or
Overdrafts, whether caused by you, an Authorized User, or any another person to whom you provide access to your Step
Account. If we pay a transaction that causes an Overdraft or negative Available Balance in a Wallet, you must immediately pay
the amount of any Overdraft and restore the Available Balance of all Wallets to at least $0.00. You have no right to defer such
https://step.com/policies/accountagreement

35/69

10/14/2020

Step Account Agreement — Step.com

payments, and you are liable regardless of whether you signed the item or beneﬁtted from the charge or Overdraft. If you fail
to pay an Overdraft, we also may report you to consumer reporting agencies, close your Step Account, or both. This could
affect your ability to open accounts with us or other banks in the future. We may also apply funds in your Deposit Account to
cure a negative Available Balance in any Wallet. You authorize us to use the money from any subsequent deposits to your
Deposit Account to pay any Overdraft or apply the deposit to cure a negative Available Balance in any Wallet. Subsequent
deposits include any federal or state beneﬁt payments that you choose to deposit in your Deposit Account (including direct
deposit of Social Security beneﬁts), unless prohibited by law. You understand and agree that if you do not want your beneﬁts
applied in this way, you may change your direct deposit instructions at any time. We may still pursue collection of the
amount you owe (including suing you) after it is charged off.

. Waiver of Notices. To the extent permitted by law, you waive any notice of non-payment, dishonor or protest regarding any
items credited to or charged against your Deposit Account. For example, if you authorize a transaction and it is returned
unpaid or we receive a notice of nonpayment, we do not have to notify you unless required by federal Regulation CC or other
law.

D. Person to Person Transfers. You may use your Step Account to make person-to-person transfers (P2P Transfers) to other Step
users.

. Payment Authorization. By authorizing a P2P Transfer, you authorize us to debit your Deposit Account for the amount you
request to send, plus applicable fees if any, on or after the date of your authorization. If you use a Sub-Account to make a P2P
Transfer, we will reduce the Available Balance in the associated Wallet by the amount of the P2P Transfer (plus fees, if any).
We will send that amount (less fees, if any) to your designated recipient. By authorizing a P2P Transfer, you also authorize us
to initiate any other transactions necessary to correct errors or reverse payments that are rejected or returned. You may not
https://step.com/policies/accountagreement

36/69

10/14/2020

Step Account Agreement — Step.com

use an external bank account or any other payment method to fund a P2P Transfer. You are solely responsible for ensuring
you have a sufﬁcient Available Balance in your Deposit Account necessary to complete any payments initiated through the
P2P Transfer service, and that the transaction will not cause you to exceed any Spending Limit. You agree to reimburse us for
any fees, costs, or expenses we incur as a result of insufﬁcient or unavailable funds in connection with any P2P Transfer you
initiate.

. Restrictions on P2P Transfers to Step Users Without Step Account. If you send a P2P Transfer to a recipient who does not
have a Step Account, you authorize us to hold the funds you send on behalf of your recipient, and we will issue promotional
credit (Credit) to the recipient in lieu of cash. You understand that the recipient cannot redeem the Credit for cash unless and
until the recipient open a Step Account. To send a P2P Transfer, you must provide the recipient’s valid mobile telephone
number, which is capable of receiving SMS or “text messages.” If the recipient does not have an online account on the Step
website (Online Account), the recipient will receive an SMS message notifying them of your P2P Transfer, with instructions for
opening an Online Account or Step Account and claiming the Credit. Once the recipient has an Online Account, the recipient
will receive Credit in the amount of the P2P Transfer you send. An Online Account is not a Step Account and your recipient
may not use an Online Account to redeem the Credit for cash. If the recipient opens a Step Account, the Credit will be
automatically redeemed for cash and deposited in their Step Account. Credit has no cash value until and unless we redeem
the Credit for cash, and credit it to a Deposit Account. Credit is issued solely for promotional purposes and is not FDICinsured. Credit expires 30 days after the date it is issued, if it is not used or redeemed for cash. If the recipient fails to claim
the Credit or their Online Account is inactive for an extended period of time, it may be deemed “unclaimed” or “abandoned”
under applicable state law. See Section 5 of the Step Mobile, Inc. Terms of Service for more information.

. Transaction Limits. You may not make P2P Transfers that would cause you to exceed any transaction limits set forth in
provision of this Agreement. You may not make any P2P Transfer that would case you to exceed any applicable Spending
Limit. We may reject or reverse any transaction that would cause you or the recipient of the P2P Transfer to exceed limits
https://step.com/policies/accountagreement

37/69

10/14/2020

Step Account Agreement — Step.com

applicable to their Step Account or Online Account, or if we determine in our sole discretion that the P2P Transfer was invalid
for any reason. You may not make P2P Transfers to conduct business, commercial or merchant transactions. We reserve the
right to change these transaction limitations at any time, in our sole discretion, with or without notice to you, unless required
by law.

. Stop Payment. All P2P Transfer requests may be processed as soon as we receive them, and we may be unable to stop the
P2P Transfer. Our ability to stop a P2P Transfer once you have initiated it will depend on when you notify us of your desire to
stop the transaction, and whether we have begun to process the P2P Transfer or have a reasonable opportunity to act on
your request to stop the payment.

. Refunds, Reversals and Chargebacks. P2P Transfers may be invalidated or reversed by us if, among other reasons, we send
cash or Credit to you or your recipient in error, the funding transaction is declined or reversed, the P2P Transfer was
unauthorized or unfunded, or the P2P Transfer was made for activities or reasons that violate this Agreement, the Step
Mobile, Inc. Terms of Service or any other agreement you have with us. If the P2P Transfer you send or receive is invalidated
for any reason, you may be liable to us for the full amount of the P2P Transfer, and we may recover the amount of the P2P
Transfer (plus applicable fees, if any) from you. We may recover the amount of the P2P Transfer from the sender or recipient
of the P2P Transfer in our sole discretion (subject to applicable law). When recovering the amount of an invalidated P2P
Transfer from you, we may apply any funds sent to you in a subsequent P2P Transfer, from your Deposit Account or any
incoming deposit to your Deposit Account, engage in collection efforts to recover such amounts from you, place a limitation
or restriction on your Step Account, or take any other action authorized by this Agreement, Step Mobile, Inc. Terms of Service
or any other agreement you have with us.

https://step.com/policies/accountagreement

38/69

10/14/2020

Step Account Agreement — Step.com

. Other Restrictions. Your ability to make P2P Transfers is subject to all other terms and restrictions set forth in Section 5 of the
Step Mobile, Inc. Terms of Service, which are incorporated herein by reference. In the event of a conﬂict between the Terms
of Service and this Agreement, this Agreement shall control.

V. ADDITIONAL TERMS
This section applies to all features of your Step Account.

A. Communications, Statements, Notices of Errors, and Other Notices

. Delivery of Notices. You agree that we and our service providers may communicate with you by mail, telephone, email, fax,
prerecorded message, automated voice, text message or other means allowed by law regarding your Step Account. Any
legal disclosures, notices and communications and other Step Account-related correspondence that we mail to you will be
sent via U.S. Mail to the last mailing address shown in our records for your Step Account. Notices will be deemed to have
been delivered on the day we mailed it to you, or made it available electronically. We are not responsible for items lost in, or
not delivered by, mail or e-mail. Some notices may only be available electronically or in paper form. Notice to any owner of
your Step Account is notice to all owners and Authorized Users.

. Notices You Send Us. Any written notice you give us is effective after we actually receive and act on it, and it must be given
to us according to the speciﬁc delivery instructions provided elsewhere, if any. We must receive it in time to have a
reasonable opportunity to act on it. If the notice is regarding a check or other item, you must give us sufﬁcient information to
be able to identify the item, including the item number, amount, date and payee.

https://step.com/policies/accountagreement

39/69

10/14/2020

Step Account Agreement — Step.com

. Electronic Communication. Your Step Account is an electronic account. We may send communications electronically, such as
by email or text message, rather than through U.S. mail or other means, unless the law says otherwise. If you give us your
email address, you agree that we may send servicing messages (such as fraud alerts and hold alerts) related to your Step
Account to that address. You may be required to agree to communicate with us by electronic means in order to open a Step
Account. If you revoke your consent to electronic communications, we may declare you to be in default of this Agreement
(see Section III.F.1), close your Step Account or take other actions described in Section III.F.2 of this Agreement and the
Electronic Communications Agreement.

. Telephone Communication. We may record and/or monitor any of our telephone conversations with you. If we do record,
we do not have to keep the recordings, unless the law says we must. When you give us your mobile number, we have your
permission to contact you at that number about all of your Evolve accounts. Your consent allows us and our service providers
to use text messaging, artiﬁcial or prerecorded voice messages and automatic dialing technology for informational and
service calls, but not for telemarketing or sales calls. This communication may include contact from companies working on
our behalf to service your Step Account. Message and data rates may apply. You may change these preferences by emailing
hello@step.com.

. Change in Contact Information. We require you to provide an e-mail address, mobile telephone number, and physical street
address if your mailing address is a P.O. box. You are responsible for promptly notifying us of any change to any such contact
information or your name. In some instances, we may request additional information for veriﬁcation purposes. Any notice we
mail to you (or email to you if you have told us to communicate with you electronically) will be binding when sent to the last
(postal or electronic) address in our records. We may change your address if we receive an address change notice from the
U.S. Postal Service (USPS) or if a company in the business of providing correct addresses informs us that the address in our
records no longer matches your address. Even if you elected to receive electronic communications from us, there may still be
some legal information that we need to send you via the USPS.
https://step.com/policies/accountagreement

40/69

10/14/2020

Step Account Agreement — Step.com

. Communications Equipment and Services. You are responsible for obtaining and maintaining all telecommunications, mobile,
broadband, computer, hardware, software, equipment and services needed to access and use your Step Account online;
view, save and/or print your Step Account documents online; receive any messages or documents you have consented to
receive electronically; and for paying all related charges. We are not required to act on any instruction or message from you
provided by SMS/text, or telephone voice mail, message service or answering machine. Whenever this Agreement or
applicable law requires or allows you to give us written notice, we will not consider SMS/text to be written notice.

B. Closing and Restricting Your Step Account.

. You May Close Your Account. You may request to close your Step Account at any time for any reason. However, we are not
required to close your Step Account at your request if you have pending transactions, your Deposit Account is overdrawn,
your Deposit Account balance is securing an outstanding balance on your Card, or your Deposit Account is subject to legal
process (such as a garnishment, attachment, execution, levy or similar order). In those cases, we will restrict your Step
Account against all future withdrawals and other transactions, other than under legal process until pending transactions are
paid or returned, the balance on your Deposit Account is no longer negative, there is no outstanding balance on your Card(s),
and any legal restriction on your Step Account has been released.

. We May Close Your Account. We may also close your Step Account at any time, for any reason or no reason, with or without
prior notice to you. We will have no liability for any action we take under this section

https://step.com/policies/accountagreement

41/69

10/14/2020

Step Account Agreement — Step.com

. Rules for Closing Your Account. We may restrict your Step Account in preparation for closing. As we do so, we will not pay
any additional interest on your Deposit Account, and we may limit deposits to, or withdrawals from, your Deposit Account.
We may prohibit further transactions on your Card(s). Items presented for payment may be dishonored. When you close your
Step Account, you are responsible for leaving enough money in your Deposit Account to cover any outstanding items to be
paid from your Deposit Account. We may send you written notice that we have closed your Step Account. We will return the
Available Balance in your Deposit Account less any outstanding unpaid Step Card Balance, fees, claims, setoffs or other
amounts you owe us, either electronically to a Linked External Account or by check sent to you by mail. This Agreement will
survive the closing of your Step Account and you are still responsible for obligations incurred prior to or in connection with
the closing of your Step Account. After your Step Account is closed, we have no obligation to accept deposits or pay any
outstanding transaction requests, but we may reopen your Deposit Account if we receive a deposit. This Agreement will
survive the closing of your Account and you are still responsible for obligations incurred prior to or in connection with the
closing of your Account.

. Restricting Your Account; Blocking and Delaying Transactions. There are many reasons we may decline or prevent
transactions to or from your Step Account, but we generally do it to protect you or us, or to comply with legal requirements.
We may decline or prevent any or all transactions to or from your Step Account in our sole discretion, as permitted by
applicable law. We may refuse, freeze, reverse or delay any speciﬁc withdrawal, payment or transfer of funds to or from your
Deposit Account, or we may remove funds from your Deposit Account to hold them pending investigation, including in one or
more of the following circumstances:

You maintain your Deposit Account at zero balance for at least 180 days;

You reside in or relocate outside of the U.S. or any U.S. territory where we offer the Step Account;
https://step.com/policies/accountagreement

42/69

10/14/2020

Step Account Agreement — Step.com

You attempt to use your Step Account for business purposes;

Your Step Account is involved in any legal or administrative proceeding;

We receive conﬂicting information or instructions regarding Step Account ownership, control or activity;

We suspect that you may be the victim of a fraud, scam or ﬁnancial exploitation, even though you have authorized the
transaction(s);

We suspect that any transaction may involve illegal activity, including violations of anti-money laundering laws and
regulations, or may be fraudulent;

We are complying in our sole judgment with any federal, state or local law, rule or regulation, including federal asset control
and sanction rules and anti-money laundering rules, or with our policies adopted to assure that we comply with those laws,
rules or regulations; or

We reasonably believe that doing so is necessary to avoid a loss or reduce risk to us.

https://step.com/policies/accountagreement

43/69

10/14/2020

Step Account Agreement — Step.com

C. Other Account Terms

. Security. It is your responsibility to protect the devices on which you access your Step Account, your Card(s), the username,
password, biometrics or other data you use to log into the App (Access Credentials). Do not share this information with
anyone. If you give another person permission to use this information, you may be held fully liable for any transactions they
make with your Step Account, even if that person exceeded the authority you gave them. Please notify us immediately if you
believe your Step Account has been accessed without your permission. See the Electronic Fund Transfer Agreement and
Section III.E of this Agreement for more information about your rights and responsibility in the event of unauthorized use of
your Step Account.

. Assignment of Agreement and Successors. You may not assign or transfer any interest in your Step Account unless we agree
in writing. Any permitted assignment of your Step Account is subject to our setoff rights. This Agreement will be binding on
your personal representative, executors, administrators and successors, and on our successors and assigns.

. Power of Attorney. A power of attorney is a document you sign that authorizes someone else, called the agent, to act on
your behalf. If you sign a power of attorney, the agent can sign on your behalf and do anything you could do regarding your
Step Account, including withdrawing or spending all of the money in your Deposit Account. Do not sign a power of attorney
unless you trust the agent to act in your best interest. If you choose to add an agent, you must provide a power of attorney
form that we agree to accept. We may rely on a copy of an original power of attorney. We are not required to investigate the
facts relating to any power of attorney provided to us on your behalf, including whether your signature on the power of
attorney is authentic or whether the agent continues to have authority. We may follow or refuse to follow the agent’s
instructions at any time, including if we suspect fraud or abuse on your Step Account, unless applicable law requires
otherwise. We may also refuse an agent’s request to become a joint owner or a beneﬁciary of a Step Account, but we have

https://step.com/policies/accountagreement

44/69

10/14/2020

Step Account Agreement — Step.com

no liability to anyone if we do so. We have no liability when we follow or refuse to follow any instructions from an agent, for
example, if your agent misuses the authority you have given them.

. Death or Incompetence. You agree to notify us promptly if any person with a right to use your Step Account dies or is
adjudicated incompetent. We may continue to honor your transactions and instructions until: (a) we know of your death or
adjudication of incompetence, and (b) we have had a reasonable opportunity to act on that knowledge. You agree that we
may pay or certify transactions made on or before the date of death or adjudication of incompetence for up to 10 days after
your death or adjudication of incompetence unless ordered to stop payment by someone claiming an interest in the Step
Account.

. No Waiver. If we fail to exercise any right, that does not mean that we waive that right or any other right, and we may still
enforce all of our rights in the future.

. Headings and Rules of Construction. The headings in this Agreement are for convenience or reference only and will not
govern the interpretation of the provisions. Unless it would be inconsistent to do so, words and phrases used in this
Agreement should be construed so the singular includes the plural and the plural includes the singular.

. Changes to this Agreement. We may change the terms and conditions of this Agreement, including fees and features of your
Step Account, at any time. We will notify you in advance of any such change when required by applicable law. If we have
notiﬁed you of a change to this Agreement and you continue to use your Step Account after the effective date of the change,
you have agreed to the change. Notices will be made available on our App and website, or delivered electronically using the
most recent contact information we have on ﬁle for you.
https://step.com/policies/accountagreement

45/69

10/14/2020

Step Account Agreement — Step.com

. Legal Actions Affecting Your Account. If we are served with a subpoena, restraining order, writ of attachment or execution,
levy, garnishment, search warrant, or similar order relating to your Step Account (Legal Action), we will comply with that
Legal Action. Or, in our discretion, we may freeze the assets in your Deposit Account and not allow any payments out of your
Deposit Account, or use of the Card(s) for obligations secured by your Deposit Account, until a ﬁnal court determination
regarding the legal action. We may do these things even if the legal action involves less than all of your funds in your Deposit
Account. In these cases, we will not have any liability to you if there are insufﬁcient funds to pay your items because we have
withdrawn funds from your Deposit Account or in any way restricted access to your funds in accordance with the legal
action. Any fees or expenses we incur in responding to any legal action (including attorneys' fees and our internal expenses)
may be charged against your Step Account. The Fee Schedule may specify additional fees that we may charge for certain
legal actions.

. Illegal Activities. You agree not to use your Step Account for any illegal activity. We may refuse any gambling transaction,
whether lawful or not.

. Inactive and Unclaimed Accounts. Each state has laws that govern when accounts are considered inactive or abandoned,
and when we are required to send a customer’s funds to the state. We encourage you to make sure your Step Account
remains active by signing in to the App or making transactions. After a speciﬁed period of time determined by the law of the
state of your residence (as shown in our records), if we are not able to locate you, we will be required to deliver your Deposit
Account to the state as abandoned property. You will then need to apply to the state for return of your funds. If your Step
Account is or has been inactive, we may, in our discretion, refuse to honor requests for withdrawals or other transactions on
your Step Account until after we have veriﬁed that you have authorized the request.

https://step.com/policies/accountagreement

46/69

10/14/2020

Step Account Agreement — Step.com

. Reporting to Consumer Reporting Agency; Disputes. We may report information about you or your Step Account to a
consumer reporting agency. If you believe that we have reported inaccurate or incomplete information about your Step
Account to a consumer reporting agency, you have the right to ﬁle a dispute with that consumer reporting agency. You may
also submit a dispute directly to us by writing to us at hello@step.com. Provide your name, address and phone number; your
Step Account number; the speciﬁc information you are disputing; an explanation of why it is inaccurate or incomplete; and
any supporting documentation.

. Rules Governing Your Account. Except as otherwise provided in the Arbitration Agreement, this Agreement and your Step
Account are subject to applicable federal laws, the laws of the State of Tennessee without regard to internal principles of
conﬂicts of law, and other applicable rules such as the operating letters of the Federal Reserve Banks and payment
processing system rules (except to the extent that this Agreement can and does vary such rules or laws). Changes in these
laws may change the terms and conditions of your Step Account. We will notify you of any changes as required by law.
Except as otherwise provided in the Arbitration Agreement, if any provision of this Agreement is found to be unenforceable
according to its terms, all remaining provisions will continue in full force and effect. If this Agreement conﬂicts with any
statements made by one of our employees or by a third-party service provider, this Agreement will govern.

. Fees. You agree to the terms of this Agreement and the Fee Schedule. You authorize us to deduct these charges, without
notice to you, directly from the balance as accrued. You will pay any additional reasonable charges for services you request
which are not covered by this Agreement.

. Attorneys’ Fees Resulting from Collection or Dispute. You will be liable for our costs as well as for our reasonable attorneys’
fees, to the extent permitted by law, whether incurred as a result of collection or in any other dispute involving your Step
Account. This includes you and any Authorized User(s); or a third party claiming an interest in your Step Account. This also
https://step.com/policies/accountagreement

47/69

10/14/2020

Step Account Agreement — Step.com

includes any action that you or a third party takes regarding the Step Account that causes us, in good faith, to seek the
advice of an attorney, whether or not we become involved in the dispute. All costs and attorneys’ fees can be deducted from
your Deposit Account balance when they are incurred, without notice to you.

. Limitation of Liability. You agree that we, our service providers, agents, ofﬁcers, directors, and employees (and the same of
our service providers, subsidiaries and afﬁliates themselves) (collectively, the Indemniﬁed Parties) will not be liable for
anything we do when following your instructions. In addition, the Indemniﬁed Parties will not be liable if any such Indemniﬁed
Party does not follow your instructions if we reasonably believe that your instructions would expose us to potential loss or
civil or criminal liability, or conﬂict with customary banking practices. To the extent you are entitled to relief under this
Agreement, the total liability of the Indemniﬁed Parties to you will not exceed $500, except as otherwise required by
applicable law. THE INDEMNIFIED PARTIES WILL NOT BE LIABLE FOR INDIRECT, SPECIAL, OR CONSEQUENTIAL DAMAGES
REGARDLESS OF THE FORM OF ACTION AND EVEN IF WE HAVE BEEN ADVISED OF THE POSSIBILITY OF SUCH DAMAGES. IF
WE FAIL TO STOP PAYMENT ON AN ITEM, OR PAY AN ITEM BEARING AN UNAUTHORIZED SIGNATURE, FORGED SIGNATURE,
OR FORGED ENDORSEMENT OR ALTERATION, OUR LIABILITY, IF ANY, WILL BE LIMITED TO THE FACE AMOUNT OF THE ITEM.
This section will survive termination of your Step Account and termination of this Agreement.

. Indemniﬁcation. You agree to indemnify and hold the Indemniﬁed Parties harmless from and against losses arising in
connection with the services provided under this Agreement, except for losses arising out of our own gross negligence or
willful misconduct. You further agree to hold the Indemniﬁed Parties harmless from losses arising out of actions taken or
omitted in good faith by any Indemniﬁed Party in reliance upon instructions from you. The Indemniﬁed Parties are not
responsible for any actions or omissions by any third party. If you give us instructions that we believe may expose us to
potential liability, we may refuse to follow your instructions and we will not be liable to you if we refuse to follow your
instructions. If we do choose to follow your instructions, we may ask you for certain protections such as a surety bond or an

https://step.com/policies/accountagreement

48/69

10/14/2020

Step Account Agreement — Step.com

indemnity agreement in a form that is satisfactory to us. This section will survive termination of your Step Account and
termination of this Agreement.

. Filing a Lawsuit or Arbitration. You must ﬁle any lawsuit or arbitration against the Indemniﬁed Parties within two years after
the cause of action arises, unless federal or state law or an applicable agreement provides for a shorter time. This limit is in
addition to limits on notice as a condition to making a claim. If applicable state law does not permit contractual shortening of
the time during which a lawsuit must be ﬁled to a period as short as two years, you and we agree to the shortest permitted
time under that state’s laws. We abide by applicable federal and state record retention laws and may dispose of any records
that we retained or preserved for the period set forth in these laws. Any action against us or another Indemniﬁed Party must
be brought within the period that the law requires us to preserve records, unless applicable law or this Agreement provides a
shorter limitation period or applicable law requires a longer limitation period. This section is subject to Section V.C.22, which
may require you to submit your claims to arbitration. This section will survive termination of your Step Account and
termination of this Agreement. YOU AGREE THAT YOU MAY BRING CLAIMS AGAINST THE BANK OR ANY OTHER INDEMNIFIED

PARTY ONLY ON AN INDIVIDUAL BASIS AND NOT AS A PLAINTIFF OR CLASS MEMBER IN ANY PURPORTED CLASS OR
REPRESENTATIVE ACTION OR PROCEEDING.

. Location of Legal Proceedings. If you ﬁle any lawsuit or other legal proceeding against an Indemniﬁed Party that is
connected in any way to your Step Account or services, you agree to do so in an appropriate court in the State of Tennessee.
If we ﬁle any lawsuit or legal proceeding that is connected in any way to your Step Account or this Agreement, you consent
to jurisdiction and venue in an appropriate court in the State of Tennessee. If any party chooses to have disputes resolved by
arbitration, the Arbitration Agreement governs the process and location of the arbitration proceedings.

https://step.com/policies/accountagreement

49/69

10/14/2020

Step Account Agreement — Step.com

. Pre-Judgment Interest Rate. If either you or we are awarded a judgment against the other in connection with your Step
Account, the rate of interest earned before judgment on the judgment amount will be the rate of interest your Deposit
Account earned during that period unless state law requires a different rate.

. Unlawful Internet Gambling Notice. Restricted transactions as deﬁned in Federal Reserve Regulation GG are prohibited from
being processed through this Step Account or relationship. Restricted transactions generally include those in which credit,
electronic fund transfers, checks, or drafts are knowingly accepted by gambling businesses in connection with the
participation by others in unlawful Internet gambling.

. Severability. Any provision of this Agreement that limits the Bank’s liability does not negate the Bank’s duty (if any) under
applicable law to act in good faith and with ordinary care. If any provision of this Agreement is determined to limit the Bank’s
liability in a way prohibited by applicable law, or to be otherwise unenforceable, the parties agree to replace such provision
with a provision that is valid and enforceable and that comes closest to expressing the intention of the invalid or
unenforceable, and this Agreement will be enforceable as so modiﬁed.

. ARBITRATION AGREEMENT

PLEASE READ THIS SECTION CAREFULLY AS IT AFFECTS YOUR RIGHTS. YOU HAVE THE RIGHT TO OPT OUT OF THIS
ARBITRATION AGREEMENT AS DESCRIBED BELOW.

Agreement to Arbitrate

https://step.com/policies/accountagreement

50/69

10/14/2020

Step Account Agreement — Step.com

This section is referred to as the Arbitration Agreement. If you have a dispute with the Bank or any other Indemniﬁed Party,
and are not able to resolve the dispute informally, you and we agree that upon demand by you, the Bank or any other
Indemniﬁed Party, the dispute will be resolved through the arbitration process set forth in this section.

Arbitration

You agree that if you have a dispute or claim that has arisen or may arise between you and the Bank or any other Indemniﬁed
Party, whether arising out of or relating to this Agreement (including any alleged breach), your Step Account and services
provided under this Agreement, any advertising, any aspect of the relationship or transactions between us, and you are not
able to resolve the dispute or claim informally, you and we agree that upon demand by you, the Bank or any other
Indemniﬁed Party, the dispute or claim will be resolved exclusively through ﬁnal and binding arbitration, rather than a court,
in accordance with the terms of this Arbitration Agreement. except that you may assert individual claims in small claims court,
if your claims qualify. Further, this Arbitration Agreement does not preclude you from bringing issues to the attention of
federal, state, or local agencies, and such agencies can, if the law allows, seek relief against us on your behalf. You agree that,
by entering into this Arbitration Agreement, you and the Bank are each waiving the right to a trial by jury or to participate in a
class action. Your rights will be determined by a neutral arbitrator, not a judge or jury. The Federal Arbitration Act governs the
interpretation and enforcement of this Arbitration Agreement.

Parties Subject to this Arbitration Agreement

This Arbitration Agreement applies whenever there is a claim between you and us. If a third party, such as an Indemniﬁed
Party other than the Bank, is also involved in a claim between you and us, or if a dispute arises between you and an
Indemniﬁed Party other than the Bank relating to this Agreement or your Step Account, then the claim will be decided with
respect to the third party in arbitration as well, in accordance with this Arbitration Agreement, and it must be named as a

https://step.com/policies/accountagreement

51/69

10/14/2020

Step Account Agreement — Step.com

party in accordance with the rules of procedure governing the arbitration. No award or relief will be granted by the arbitrator
except on behalf of, or against, a named party.

THIS ARBITRATION AGREEMENT DOES NOT APPLY TO YOU IF, AS OF THE DATE OF THIS AGREEMENT, YOU ARE A COVERED
BORROWER UNDER THE FEDERAL MILITARY LENDING ACT. IF YOU WOULD LIKE MORE INFORMATION ABOUT WHETHER YOU
ARE COVERED BY THE MILITARY LENDING ACT, IN WHICH CASE THIS ARBITRATION PROVISION DOES NOT APPLY TO YOU,
PLEASE CONTACT US AT HELLO@STEP.COM..

Exclusions

You and we retain the right to pursue in small claims court (or an equivalent state court) any dispute that is within that court’s
jurisdiction, so long as the disputes remain in such court and advance only an individual claim for relief. If either you or we fail
to submit to binding arbitration of an arbitrable dispute following lawful demand, the party so failing will bear all costs and
expenses incurred by the other in compelling arbitration.

Your Right to Opt Out

If you do not want this Arbitration Agreement to apply to your Step Account, you may opt out by sending us written notice of
your decision within 30 days of the opening of your Step Account. Such notice must clearly state that you wish to cancel or
opt out of the Arbitration Agreement section of this Agreement. It should include your name, address, Step Account number,
and your signature and must be mailed to Step Mobile Inc., ATTM: LEGAL, 120 Hawthorne Ave, Palo Alto CA, 94301.. This is the
sole and only method by which you can opt out of this Arbitration Agreement. Your exercise of the right to opt-out will not
affect any remaining terms of this Agreement and will not result in any adverse consequence to you or your Step Account.
You agree that our business records will be ﬁnal and conclusive evidence with respect to whether you cancelled or opted out
of this Arbitration Agreement in a timely and proper fashion.
https://step.com/policies/accountagreement

52/69

10/14/2020

Step Account Agreement — Step.com

Prohibition of Class and Representative Actions and Non-Individualized Relief

YOU AGREE THAT YOU MAY BRING CLAIMS AGAINST THE BANK OR ANY OTHER INDEMNIFIED PARTY ONLY ON AN
INDIVIDUAL BASIS AND NOT AS A PLAINTIFF OR CLASS MEMBER IN ANY PURPORTED CLASS OR REPRESENTATIVE ACTION
OR PROCEEDING. UNLESS BOTH YOU AND THE BANK AGREE OTHERWISE, THE ARBITRATOR MAY NOT CONSOLIDATE OR
JOIN MORE THAN ONE PERSON’S OR PARTY’S CLAIMS AND MAY NOT OTHERWISE PRESIDE OVER ANY FORM OF A
CONSOLIDATED, REPRESENTATIVE, OR CLASS PROCEEDING. ALSO, THE ARBITRATOR MAY AWARD RELIEF (INCLUDING
MONETARY, INJUNCTIVE, AND DECLARATORY RELIEF) ONLY IN FAVOR OF THE INDIVIDUAL PARTY SEEKING RELIEF AND
ONLY TO THE EXTENT NECESSARY TO PROVIDE RELIEF NECESSITATED BY THAT PARTY’S INDIVIDUAL CLAIM(S), EXCEPT
THAT YOU MAY PURSUE A CLAIM FOR AND THE ARBITRATOR MAY AWARD PUBLIC INJUNCTIVE RELIEF UNDER APPLICABLE
LAW TO THE EXTENT REQUIRED FOR THE ENFORCEABILITY OF THIS PROVISION.

Pre-Arbitration Dispute Resolution

The Bank and Indemniﬁed Parties are always interested in resolving disputes amicably and efﬁciently, and most customer
concerns can be resolved quickly and to your satisfaction by emailing customer support at hello@step.com. If such efforts
prove unsuccessful, a party who intends to seek arbitration must ﬁrst send to the other, by certiﬁed mail, a written Notice of
Dispute (Notice). The Notice to the Bank or Indemniﬁed Party should be sent to Step Mobile Inc., ATTN: LEGAL, 120
Hawthorne Ave, Palo Alto CA 94301 (Notice Address). The Notice must (a) describe the nature and basis of the claim or
dispute and (b) set forth the speciﬁc relief sought. If you do not resolve the claim with the Bank or Indemniﬁed Party within
60 calendar days after the Notice is received, you or the Bank or Indemniﬁed Party, as applicable, may commence an
arbitration proceeding. During the arbitration, the amount of any settlement offer made by any party will not be disclosed to
the arbitrator until after the arbitrator determines the amount, if any, to which you or the Bank is entitled.

https://step.com/policies/accountagreement

53/69

10/14/2020

Step Account Agreement — Step.com

Arbitration Procedures

Arbitration will be conducted by a neutral arbitrator in accordance with the American Arbitration Association’s (AAA) rules
and procedures, including the AAA’s Consumer Arbitration Rules (collectively, the AAA Rules), as modiﬁed by this Arbitration

Agreement. For information on the AAA, please visit its website, http://www.adr.org. Information about the AAA Rules and
fees for consumer disputes can be found at the AAA’s consumer arbitration page, http://www.adr.org/consumer_arbitration.
If there is any inconsistency between any term of the AAA Rules and any term of this Arbitration Agreement, the applicable
terms of this Arbitration Agreement will control unless the arbitrator determines that the application of the inconsistent

Arbitration Agreement terms would not result in a fundamentally fair arbitration. The arbitrator must also follow the provisions
of this Agreement as a court would. All issues are for the arbitrator to decide, including issues relating to the scope,
enforceability, and arbitrability of this Arbitration Agreement. Although arbitration proceedings are usually simpler and more
streamlined than trials and other judicial proceedings, the arbitrator can award the same damages and relief on an individual
basis that a court can award to an individual under this Agreement and applicable law. Decisions by the arbitrator are
enforceable in court and may be overturned by a court only for very limited reasons.

Unless the parties to the arbitration agree otherwise, any arbitration hearings will take place in a reasonably convenient
location for both parties with due consideration of their ability to travel and other pertinent circumstances. If the parties are
unable to agree on a location, the determination will be made by AAA. If your claim is for $10,000 or less, you may choose
whether the arbitration will be conducted solely on the basis of documents submitted to the arbitrator, through a telephonic
hearing, or by an in-person hearing as established by the AAA Rules. If your claim exceeds $10,000, the right to a hearing will
be determined by the AAA Rules. Regardless of the manner in which the arbitration is conducted, the arbitrator will issue a
reasoned written decision sufﬁcient to explain the essential ﬁndings and conclusions on which the award is based.

Costs of Arbitration

https://step.com/policies/accountagreement

54/69

10/14/2020

Step Account Agreement — Step.com

Payment of all ﬁling, administration, and arbitrator fees (collectively, the Arbitration Fees) will be governed by the AAA Rules,
unless otherwise provided in this Arbitration Agreement. If the value of the relief sought is $75,000 or less, at your request,
the Bank will pay all Arbitration Fees. If the value of relief sought is more than $75,000 and you are able to demonstrate to the
arbitrator that you are economically unable to pay your portion of the Arbitration Fees or if the arbitrator otherwise
determines for any reason that you should not be required to pay your portion of the Arbitration Fees, the Bank will pay your
portion of such fees. In addition, if you demonstrate to the arbitrator that the costs of arbitration will be prohibitive as
compared to the costs of litigation, the Bank will pay as much of the Arbitration Fees as the arbitrator deems necessary to
prevent the arbitration from being cost-prohibitive. Any payment of attorneys’ fees will be governed by the AAA Rules.

Conﬁdentiality

All aspects of the arbitration proceeding, and any ruling, decision, or award by the arbitrator, will be strictly conﬁdential for
the beneﬁt of all parties.

Severability

If a court or the arbitrator decides that any term or provision of this Arbitration Agreement (other than the Prohibition of Class

and Representative Actions and Non-Individualized Relief section above) is invalid or unenforceable, the parties agree to
replace such term or provision with a term or provision that is valid and enforceable and that comes closest to expressing the
intention of the invalid or unenforceable term or provision, and this Arbitration Agreement will be enforceable as so modiﬁed.
If a court or the arbitrator decides that any of the provisions of the Prohibition of Class and Representative Actions and Non-

Individualized Relief section are invalid or unenforceable, then the entirety of this Arbitration Agreement will be null and void,
unless such provisions are deemed to be invalid or unenforceable solely with respect to claims for public injunctive relief. The
remainder of this Arbitration Agreement will continue to apply.

https://step.com/policies/accountagreement

55/69

10/14/2020

Step Account Agreement — Step.com

Future Changes to this Arbitration AGREEMENT

Notwithstanding any provision in this Agreement to the contrary, if the Bank makes any future change to this Arbitration

Agreement (other than a change to the Notice Address) while you have a Step Account, you may reject any such change by
sending the Bank written notice within 30 days of the change to the Notice Address. By rejecting any future change, you are
agreeing that you will arbitrate any dispute covered by this Arbitration Agreement in accordance with the terms of this

Arbitration Agreement as of the date you ﬁrst accepted this Agreement (or accepted any subsequent changes to this
Agreement).

FEE SCHEDULE
This Fee Schedule lists the fees that may be applicable to your Step Account. You agree to pay all fees applicable to your Step
Account. We reserve the right to add or change fees at a later time, and we will notify you of any changes to our fees and this
Fee Schedule, as required by applicable law. We may subtract these fees from your balance, even if the fee makes your balance
negative.

Fee

Amount

Monthly Account Maintenance Fee

$0.00

Transaction Fee (per ACH)

$0.00

Stop Payment Fee

$0.00

Deposited Item Returned Fee

$0.00

https://step.com/policies/accountagreement

56/69

10/14/2020

Step Account Agreement — Step.com

Fee

Amount

Insufﬁcient Funds Fee

$0.00

Sustained Overdraft Fee

$0.00

Returned Item Fee

$0.00

Legal Processing Fee

$0.00

Research Fee

$0.00

FUNDS AVAILABILITY POLICY
PURPOSE. The information here describes our policy of holding deposited items in a Deposit Account before funds are made
available to you for withdrawal.

DETERMINING THE AVAILABILITY OF YOUR DEPOSIT. Our policy is to delay the availability of funds from your deposits. The
length of the delay varies based on the type of deposit as set forth below. During the delay, you may not withdraw the funds,
and we will not pay transactions from your Deposit Account using these funds.

The length of the delay is counted in Business Days from the day of your deposit. If you make a deposit before 2:00PM PT on a
Business Day, we will consider that day to be the day of your deposit. However, if you make a deposit after 2:00PM PT or on a
day that is not a Business Day, we will consider the deposit made on the next Business Day.

Same Day Availability. Electronic direct deposits (e.g., ACH, person-to-person transfers, and other EFTs your Deposit Account
supports) will be available on the day we receive your deposit.
https://step.com/policies/accountagreement

57/69

10/14/2020

Step Account Agreement — Step.com

Next Day Availability. Funds from the following deposits are available on the ﬁrst Business Day after the day we receive your
deposit:
The ﬁrst $200.00 of check deposits.
Second Business Day. Unless otherwise provided by this Agreement, all other funds from deposits will be made on the second
Business Day after the day of your deposit.

Longer Delays May Apply. Funds you deposit may be delayed for longer than two Business Days under the following
circumstances:

We believe a you initiated will not be honored;

Your deposits total more than $2,500 in any one day;

You have overdrawn your Deposit Account repeatedly in the last six months; or

There is an emergency, such as failure of communications or our systems.

If we delay availability for one of these reasons, funds may not be available until the seventh Business Day after the day of
your deposit. We will notify you if we delay your ability to withdraw funds for any of these reasons, and we will tell you when
https://step.com/policies/accountagreement

58/69

10/14/2020

Step Account Agreement — Step.com

the funds will be available. If you will need the funds from a deposit right away, you should ask us when the funds will be
available.

Special Rules for New Accounts. If you are a new customer, the following special rules will apply during the ﬁrst 60 days your
Deposit Account is open.

Funds from electronic direct deposits to your Deposit Account will be available on the ﬁrst Business Day after we receive the
deposit.

Funds from deposits of cash, wire transfers, and the ﬁrst $2,500 of a day's total deposits of cashier's, certiﬁed, teller's,
traveler's, and federal, state and local government checks will be available on the ﬁrst Business Day after the day of your
deposit if the deposit meets certain conditions.

The excess over $2,500 will be available no later than the ninth Business Day after the day of your deposit.

Funds from all other deposits will be available on the 3third Business Day after the day of your deposit.

Your Responsibility for Deposits. Even if we have made funds available to you and you have withdrawn the funds, you are still
responsible for deposits that are returned to us unpaid and for any other problems involving your deposit.

https://step.com/policies/accountagreement

59/69

10/14/2020

Step Account Agreement — Step.com

ELECTRONIC FUND TRANSFER AGREEMENT
Electronic Fund Transfers: Your Rights and Responsibilities

This disclosure contains important information about your use of electronic fund transfer (EFT) services provided by the Bank in
connection with your Step Account. Whenever you accept or authorize EFTs to your Deposit Account, you agree to these terms
and conditions, in addition to any other applicable limitations in this Agreement concerning deposits to and withdrawals from
your Deposit Account. Please read this document carefully and retain it for future reference.

Business Days. Our Business Days are every day except Saturdays, Sundays, and holidays on which banks in [Tennessee] are
legally authorized to be closed.

Types of Available EFTs

Online ACH Transfers. You may use the App and request ACH transfers between your Deposit Account and a Linked External
Account.

P2P Transfers. You can make or receive transfers between your Deposit Account and the Deposit Account of another Step
user, using the person-to-person transfer services (P2P Transfer) provided in the App. P2P Transfers are subject to additional
terms and conditions.

Limits on the Type, Frequency or Amount of EFTs. Your Deposit Account may be subject to limitations on the amount or
number of withdrawals that you may make from your Deposit Account, including EFTs. Please see Article IV of this Agreement
https://step.com/policies/accountagreement

60/69

10/14/2020

Step Account Agreement — Step.com

and the Truth in Savings Disclosures. For security reasons, we may also, in our sole discretion, set limits on the dollar amounts of
EFTs and on the number of EFTs that may be requested or initiated. To protect the security of the Bank or your Deposit
Account, we may suspend your use of EFTs, as permitted by law.

Managing Your Account Balance. You agree that the amount of any EFT debit transaction you authorize will not exceed the
Available Balance in your Deposit Account used to make the transaction, or your Spending Limit. We do not have to allow any
EFT that would create an overdraft in your Deposit Account. We may in our sole discretion choose to permit an EFT that would
create an overdraft in your Deposit Account. If we are unable to complete an EFT or perform any other EFT service for any
reason associated with your Deposit Account, the EFT or other service may not be completed and we will not notify you unless
required by applicable law.

Your Rights and Responsibilities

The use of EFT services described in this Agreement creates certain rights and responsibilities regarding these services as
described below.

Documentation of Your EFTs

Periodic Statements. All EFT transactions will be reported on your periodic statement. See Section II.A.8 of this Agreement for
more information.

Direct Deposits. If you have arranged to have direct deposits made to your Deposit Account at least once every 60 days, the
company making the deposit may tell you every time they send us the money. You may also email us at heelo@step.com or call
us at 1–877–927–2562 to ﬁnd out whether or not the deposit has been made.
https://step.com/policies/accountagreement

61/69

10/14/2020

Step Account Agreement — Step.com

Conﬁrmation. You may call us at 1–877–927–2562 or write to us at hello@ step.com to ﬁnd out whether any EFT you request was
successfully completed.

Preauthorized and Other Regular (Automatic) Debits

Right to Stop Payment and Procedure for Doing So

If you have told us in advance to make regular payments out of your Deposit Account, you can stop any of the payments. Here
is how:

Call us at 1–877–927–2562 or write to us at Step Mobile Inc., ATTN: SUPPORT, 120 Hawthorn Ave, Palo Alto CA 94301, in time for us
to receive your request three Business Days or more before the payment is scheduled to be made. If you contact us to stop a
payment, please have the following information ready: your account number, the date the transfer is to be made, to whom the
transfer is being made, and the amount of the scheduled transfer. If you call, we may also require you to put your request in
writing and get it to us within 14 days after you call. We may charge you up to $0 for each stop-payment order you give. Stoppayment orders may expire after six months from the date of your stop-payment request, and you may be required to renew it
in order to ensure its continued effectiveness.

Liability for Failure to Stop Payment of Preauthorized Transfer

If you order us to stop a preauthorized automatic debit three Business Days or more before the transfer is scheduled and we do
not do so, we will be liable for your losses or damages.

https://step.com/policies/accountagreement

62/69

10/14/2020

Step Account Agreement — Step.com

Notice of Varying Amounts

If you have authorized regular payments out of your Deposit Account, and these regular payments may vary in amount, we or
the person you are going to pay will tell you, 10 days before each payment, when it will be made and how much it will be. You
may choose instead to get this notice only when the payment would differ by more than a certain amount from the previous
payment, or when the amount would fall outside certain limits that you set.

Our Refusal to Pay a Preauthorized or Other Regular (Automatic) Debit

We reserve the right to refuse to pay a regular (automatic) debit, for example, if your Deposit Account has insufﬁcient funds to
cover such transfer or if we are unable to verify the ownership of or other information about the account to which the funds will
be transferred. You may call us at 1–877–927–2562 between the hours of 8am to 5pm paciﬁc time to request information about a
refusal by us to pay a regular (automatic) debit.

Your Liability for Unauthorized Transfers

During your online Step Account set-up, you will be invited to register your phone number and create Access Credentials to
protect your Step Account from unauthorized access. You are responsible for maintaining ownership of the mobile device
associated with the phone number and security of your other Access Credentials.

Tell us AT ONCE if you believe that any Access Credentials or device you use to access your Step Account has been lost or
stolen, that an EFT has been made without your permission, or that someone has transferred or may transfer money from
your Deposit Account without your authorization. You may tell us by calling us at 1–877–927–2562 or by writing to us as soon as
possible at Step Mobile Inc., ATTN: SUPPORT, 120 Hawthorn Ave, Palo Alto CA 94301(or such other address as we may provide
https://step.com/policies/accountagreement

63/69

10/14/2020

Step Account Agreement — Step.com

to you from time to time). Using our mobile chat messenger from the Step application is the best way of keeping your
possible losses down. You could lose all the money in your Deposit Account. If you tell us within two Business Days after you
learn of the loss or theft of your Access Credentials or device, your liability will be limited to $50 if someone accesses your
Deposit Account without your authorization.

If you DO NOT tell us within two Business Days after you learn of the lost or theft of your Access Credentials or device, and we
can prove we could have stopped someone from using your Access Credentials or device without your permission if you had
told us, you could lose as much as $500.

Also, if your statement shows transfers that you did not make, tell us AT ONCE. If you do not tell us within 60 days after the
statement was mailed to you, you may not get back any money you lost after the 60 days if we can prove that we could have
stopped someone from taking the money had you told us in time. If a good reason (such as a long trip or a hospital stay) kept
you from telling us, we will extend the time periods.

If you grant authority to make transfers to another person who exceeds the authority granted, you are fully liable for any
transfers until you notify us that transfers by that person are no longer authorized.

In Case of Errors or Questions about your EFTs

Call us at 1–877–927–2562 or write us athello@step.com as soon as you can, if you think your statement or receipt is wrong or if
you need more information about a transfer listed on the statement or receipt. We must hear from you no later than 60 days
after we send the FIRST statement on which the problem or error appeared.

(1) Tell us your name and your account number (if any).
https://step.com/policies/accountagreement

64/69

10/14/2020

Step Account Agreement — Step.com

(2) Describe the error or transfer you are unsure about, and explain as clearly as you can why you believe it is an error or why
you need more information.

(3) Tell us the dollar amount of the suspected error.

If you tell us orally, we may require that you send us your complaint or question in writing within 10 Business Days.

We will determine whether an error occurred within 10 Business Days after we hear from you and will correct any error
promptly. If we need more time, however, we may take up to 45 days to investigate your complaint or question. If we decide to
do this, we will credit your Deposit Account within 10 Business Days for the amount you think is in error, so that you will have
use of the money during the time it takes us to complete our investigation. If we ask you to put your complaint or question in
writing and we do not receive it within 10 Business Days, we may not credit your Deposit Account.

For errors involving new Step Accounts, point-of-sale, or foreign-initiated transactions, we may take up to 90 days to
investigate your complaint or question. For new Step Accounts, we may take up to 20 days to credit your Deposit Account for
the amount you think is in error.

We will tell you the results within three Business Days after completing our investigation. If we decide that there was no error,
we will send you a written explanation. You may ask for copies of the documents that we used in our investigation.

Our Liability for Failure to Make a Transfer. If we do not complete a transfer to or from your Deposit Account on time or in the
correct amount according to this Agreement, we will be liable for your losses or damages. However, there are some exceptions.
We will not be liable, for instance:

https://step.com/policies/accountagreement

65/69

10/14/2020

Step Account Agreement — Step.com

If, through no fault of ours, you do not have enough money in your Deposit Account to make the transfer.

If the transfer would go over the credit limit on your overdraft line of credit, if you have one.

If an automated teller machine where you are making a transfer does not have enough cash. If a system or terminal you use to
make a transfer was not working properly and you knew about the breakdown when you started the transfer.

If circumstances beyond our control (such as ﬁre or ﬂood) prevent the transfer despite reasonable precautions that we have
taken.

There may be other exceptions stated in this Agreement.

Charges for Transfers or the Right to Make Transfers

We may assess a fee for each EFT, or stop-payment order. Please see the applicable Fee Schedule to determine the applicable
amount. The circumstances under which such charges will be assessed, as well as the amount of the charge, are included in the
current Fee Schedule.

Conﬁdentiality

https://step.com/policies/accountagreement

66/69

10/14/2020

Step Account Agreement — Step.com

We will disclose information to third parties about your Step Account or the transfers you make:

(1) Where it is necessary for completing transfers;

(2) In order to verify the existence and condition of your Step Account for a third party, such as a credit bureau or merchant;

(3) In order to comply with government agency or court orders;

(4) To persons authorized by law in the course of their ofﬁcial duties;

(5) To our employees, auditors, service providers, attorneys, or collection agents in the course of their duties;

(6) As disclosed in our Privacy Notice; and,

(7) If you give us your written permission.

Amendments. We may change any provision of this Electronic Fund Transfer Agreement in our discretion. If we do, we will give
you notice if and to the extent required by applicable law.

Termination. We reserve the right to terminate your use of any or all of our EFT services for any reason and at any time without
notifying you. You also have the right to terminate your use of the EFT services described in this Agreement at any time by
calling us or writing to us. If you call, we may require you to put your request in writing and get it to us within 10 Business Days
after you call. (Please note that e-mail, SMS/text or online notiﬁcation will not meet the notice requirements of this section.) If
https://step.com/policies/accountagreement

67/69

10/14/2020

Step Account Agreement — Step.com

you terminate your use of our EFT services and you have arranged for automatic (regular) transfers involving third parties, you
are required to inform any third parties that the transfers will cease. Any termination of your use of our EFT services, whether
initiated by you or us, will not affect any of your or our rights and obligations under this Agreement that have arisen before the
effective date of such termination.

Step Squad
Careers
Policies
Press
Contact Us

The Step Card is issued by Evolve Bank & Trust, Member FDIC. Pursuant to license by Visa.
© 2020 Step Mobile Inc. All rights reserved.

https://step.com/policies/accountagreement

68/69

10/14/2020

https://step.com/policies/accountagreement

Step Account Agreement — Step.com

69/69

